         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report




       ENERGY STAR Program Integrity
       Can Be Enhanced Through
       Expanded Product Testing
       Report No. 10-P-0040

       November 30, 2009
Report Contributors: 	                           Daniel Carroll
                                                 Jerri Dorsey
                                                 Jill Ferguson
                                                 Jeffrey Harris




Abbreviations

DVD          Digital Versatile Disc
EPA          U.S. Environmental Protection Agency
NIST         National Institute of Standards and Technology
OIG          Office of Inspector General




Cover photos:	 ENERGY STAR product categories, from left: monitors, DVD products,
               and printers. (Photos courtesy EPA)
                       U.S. Environmental Protection Agency 	                                          10-P-0040
                                                                                                November 30, 2009
                       Office of Inspector General


                       At a Glance
                                                                         Catalyst for Improving the Environment


Why We Did This Review             ENERGY STAR Program Integrity Can Be
We initiated this evaluation to    Enhanced Through Expanded Product Testing
independently test ENERGY
STAR products to determine         What We Found
whether their energy-efficient
performance complied with the      Almost all of the ENERGY STAR products in our test sample met, and in most
ENERGY STAR program’s              cases exceeded, the program’s performance standards. However, selected non-
required specifications.           ENERGY STAR products performed comparably to, and in some cases better
                                   than, ENERGY STAR products. That level of product performance affects the
Background                         ENERGY STAR label’s image as a trusted national symbol for environmental
                                   protection through superior energy efficiency.
The U.S. Environmental
Protection Agency (EPA)            In addition, the performance results of ENERGY STAR and non-ENERGY
established the ENERGY             STAR products call into question the assumptions used to calculate energy
STAR Labeling Program as an        savings and greenhouse gas reductions attributed to this program. Without an
innovative approach to             enhanced testing program, including the testing of non-ENERGY STAR
environmental protection.          products, EPA cannot be certain ENERGY STAR products are the more energy-
More than 2,400 manufacturers      efficient and cost-effective choice for consumers.
and over 40,000 individual
product models across              What We Recommend
60 product categories are
ENERGY STAR qualified.             We recommend that EPA verify estimated energy savings and greenhouse gas
In 2007, EPA reported that the     reduction calculations using a market-based performance-testing program that
ENERGY STAR program                includes testing non-ENERGY STAR products.
helped Americans save
180 billion kilowatt-hours,        We also recommend that EPA revise the ENERGY STAR Website to include the
about 5 percent of U.S.            established standard alongside qualifying product performance data and to
electricity demand, and            provide a summary listing of the highest performers.
prevented the emission of
40 million metric tons of
                                   The Agency disagreed with our conclusions but concurred with both
carbon equivalents of
                                   recommendations.
greenhouse gases.


For further information, contact
our Office of Congressional,
Public Affairs and Management
at (202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2010/
20091130-10-P-0040.pdf
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                           OFFICE OF
                                                                                      INSPECTOR GENERAL




                                         November 30, 2009

MEMORANDUM

SUBJECT:                ENERGY STAR Program Integrity Can Be Enhanced Through
                        Expanded Product Testing
                        Report No. 10-P-0040


FROM:                   Wade T. Najjum
                        Assistant Inspector General, Office of Program Evaluation

TO:                     Gina McCarthy
                        Assistant Administrator for Air and Radiation


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG) of
the U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report represents
the opinion of the OIG and does not necessarily represent the final EPA position. Final
determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the applicable
daily full cost billing rates in effect at the time, including the costs of purchasing ENERGY STAR
and non-ENERGY STAR products and having them analyzed by the National Institute of Standards
and Technology – is $489,338.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this report
within 90 calendar days. You should include a corrective actions plan for agreed-upon actions,
including milestone dates. We have no objections to the further release of this report to the public.
This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at 202-566-0827 or
najjum.wade@epa.gov, Jeffrey Harris at 202-566-0831 or harris.jeffrey@epa.gov, or Jill Ferguson at
202-566-2718 or ferguson.jill@epa.gov.
ENERGY STAR Program Integrity Can Be Enhanced                                                                               10-P-0040
Through Expanded Product Testing



                                  Table of Contents 


Chapters 

   1    Introduction ........................................................................................................      1         


                Purpose .......................................................................................................    1             

                Background .................................................................................................       1             

                Scope and Methodology .............................................................................                2             


   2    Enhanced ENERGY STAR Testing Needed to Ensure Program Integrity.....                                                       4         


                Product Specification Process.....................................................................                 4             

                Both ENERGY STAR and non-ENERGY STAR Products Met 

                       Specifications...................................................................................           5             

                ENERGY STAR Product Performance Varied but Similar to 

                       Non-ENERGY STAR Products ........................................................                           5

                ENERGY STAR Benefit Claims May Not Be Valid......................................                                  9

                Impact on Consumer Cost Savings .............................................................                      9

                Conclusions.................................................................................................      10                 

                Recommendations ......................................................................................            10             

                Agency Comments and OIG Evaluation .....................................................                          10 


   Status of Recommendations and Potential Monetary Benefits..............................                                        12     




Appendices 


   A    Agency Comments on Draft Report .................................................................                         13     


   B    Distribution .........................................................................................................    15     

                                                                                10-P-0040 





                               Chapter 1

                                Introduction
Purpose
          The purpose of this review was to test U.S. Environmental Protection Agency
          (EPA) ENERGY STAR-qualified products for compliance with required
          specifications. This independent testing was a check on the validity and
          reliability of manufacturers’ self-certification testing conducted by EPA’s
          ENERGY STAR partners. As the testing evolved and we received initial results
          showing that a number of the ENERGY STAR products tested exceeded the
          standard, we decided to expand our scope and test non-ENERGY STAR products.
          Thus, our initial purpose was expanded to also determine how non-ENERGY
          STAR products performed in comparison with ENERGY STAR products.

Background
          In 1992, EPA’s Office of Air and Radiation established the ENERGY STAR
          Product Labeling program (ENERGY STAR program) as an innovative approach
          to environmental protection. In 1996, EPA partnered with the U.S. Department of
          Energy to promote the ENERGY STAR label and broaden the range of products
          covered. In the ENERGY STAR 2008 overview of achievements, EPA stated
          that the ENERGY STAR label is recognized by more than 75 percent of the
          American public. According to EPA, the ENERGY STAR label is the trusted
          national symbol for environmental protection through superior energy efficiency.
          EPA also reports that ENERGY STAR has helped individuals save on their
          energy bills by clearly identifying energy-efficient products with superior
          performance in the marketplace.

          ENERGY STAR is the most significant of EPA’s greenhouse gas avoidance
          programs. In 2006 and 2007, the program accounted for over 50 percent of
          EPA’s contribution. EPA reported that in 2007, the ENERGY STAR program
          helped Americans save 180 billion kilowatt-hours, about 5 percent of U.S.
          electricity demand, and prevented the emission of 40 million metric tons of
          carbon equivalents of greenhouse gases.

          The ENERGY STAR program is advertised as a credible, objective source of
          information for Americans wanting to make well-informed decisions on how to
          improve the energy efficiency of their homes and businesses. More than 2,400
          manufacturers and over 40,000 individual product models across 60 product
          categories are ENERGY STAR qualified. EPA does not bestow membership into
          the ENERGY STAR program without a request from the manufacturer.
          Membership is voluntary. Manufacturers are responsible for certifying product




                                          1

                                                                                            10-P-0040




                   performance and compliance with ENERGY STAR specifications when they
                   apply to use the label.

                   In EPA Office of Inspector General (OIG) Report No. 2007-P-00028, ENERGY
                   STAR Program Can Strengthen Controls Protecting the Integrity of the Label,
                   issued August 1, 2007, we identified the need to improve EPA’s product testing
                   verification. Specifically, we found the following:

                   •	 Verification testing was conducted on a minimal basis.
                   •	 Test selection methods were inconsistently applied.
                   •	 Only a limited amount of the program budget was used for verification
                      testing.
                   •	 The quality assurance plan needed improvement.

                   Our report found that testing of ENERGY STAR products did not begin until
                   2002, 10 years after the program began. When verification testing began, it was
                   only a small component of EPA’s activities. In 2006, the cost of testing
                   represented less than 0.5 percent of the total ENERGY STAR budget. In its first
                   5 years of verification testing, EPA averaged only two sets of product verification
                   tests per year. When our 2007 report was issued, 44,000 qualified product models
                   existed within the qualified ENERGY STAR product categories. At the end of
                   2006, EPA had only conducted verification testing on 160 product models in
                   9 product categories.

Scope and Methodology
                   Between December 2008 and February 2009, we selected 20 different ENERGY
                   STAR-qualified products for testing from each of 3 product categories. Products
                   were selected and purchased online from the list of qualified products on the
                   ENERGY STAR Website1 and based on availability at major retailers. Products
                   selected were chosen to represent those that would be available for purchase by
                   the general public. Two identical models of each product category were
                   purchased for a total of 40 ENERGY STAR-qualified products per category,
                   120 products in all.




1
    http://www.energystar.gov


                                                    2

                                                                                                            10-P-0040 





                  The product categories selected and the specification dates were as follows:

                  Products                                                Specification Date2

                  Digital Versatile Disc (DVD) products3                  January 1, 2003
                  Computer monitors                                       January 1, 2006
                  Printers4                                               April 1, 2007

                  In addition to the ENERGY STAR products, we also tested the performance of
                  some non-ENERGY STAR products. We purchased 10 non-ENERGY STAR
                  products (2 each of 5 models) from each of the above categories for a total of 30
                  non-ENERGY STAR products. These products underwent the same testing as
                  our sample of ENERGY STAR products, and the results were compared with
                  ENERGY STAR specifications.

                  We performed our evaluation between April 2008 and September 2009 in
                  accordance with generally accepted government auditing standards. Those
                  standards require that we plan and perform the review to obtain sufficient,
                  appropriate evidence to provide a reasonable basis for our findings and
                  conclusions based on our review objectives. We believe that the evidence
                  obtained provides a reasonable basis for our findings and conclusions based on
                  our objectives.

                  We entered into an Interagency Agreement with the National Institute of
                  Standards and Technology (NIST) to perform the testing of all the products in our
                  sample. NIST tested these products for compliance with ENERGY STAR
                  program specifications between December 2008 and June 2009.




2
  Most recent efficiency standard date listed in the product specification requirements that were used for testing 

purposes. 

3
  DVD products included in our testing were CD players/changers, stereo amplifiers/pre-amplifiers, and stereo 

receivers. 

4
  Forty ENERGY STAR printers were tested; 24 were ink jet and 16 were laser printers. 



                                                           3

                                                                                      10-P-0040 





                                Chapter 2

 Enhanced ENERGY STAR Testing Needed to Ensure 

               Program Integrity 

          Although almost all of the ENERGY STAR products in our test sample met, and
          in most cases exceeded, the program’s performance standards, many of the non-
          ENERGY STAR products tested comparably to, and in some cases better than,
          the ENERGY STAR products. Comparable performance affects the image of the
          ENERGY STAR label as a trusted national symbol for environmental protection
          through superior energy efficiency. In addition, the results call into question the
          assumptions used to calculate energy savings and greenhouse gas reductions
          attributed to this program. Based on our testing of non-ENERGY STAR
          products, EPA cannot be certain ENERGY STAR products are the more energy-
          efficient and cost-effective choice for consumers.

Product Specification Process
          EPA follows six key principles when establishing consumer product
          energy-efficiency specifications:

                 1. Significant energy savings can be realized on a national basis.

                 2. Product performance can be maintained or enhanced with increased
                    energy efficiency.

                 3. Purchasers will recover their investment in increased energy efficiency
                    within a reasonable time.

                 4. Energy efficiency can be achieved with several technology options, at
                    least one of which is nonproprietary.

                 5. Product energy consumption and performance can be measured and
                    verified with testing.

                 6. Labeling would effectively differentiate products and be visible for
                    purchasers. Typically, the specification is set to recognize the products
                    that rank in the top 25 percent in terms of energy efficiency.




                                           4

                                                                                                  10-P-0040




Both ENERGY STAR and non-ENERGY STAR Products Met
Specifications
                We tested 120 ENERGY STAR-qualified products and 118, or 98 percent, met,
                and in most cases exceeded, program requirements for compliance. During our
                product testing, we did not find any evidence that the self-certification process
                EPA uses allows for products that do not meet the specifications to enter the
                program. The only products that failed to meet specifications were two printers of
                the same model. Both failed to meet the “Time to Sleep Mode” requirement.5
                The categories tested and positive compliance rates are presented in Table 2-1.

                Table 2-1: ENERGY STAR-qualified Product Compliance Rates
                          Product Category                  Compliance Rate
                            DVD products                         100%
                          Computer monitors                      100%
                              Printers                            95%
                Source: NIST.

                Non-ENERGY STAR Product Results

                We tested 30 non-ENERGY STAR products comparing performance to program
                requirements. A majority of these products were also in compliance with
                ENERGY STAR requirements, as shown in Table 2-2 below.

                Table 2-2: Non-ENERGY STAR Product Compliance Rates
                          Product Category                Compliance Rate
                            DVD products                        60%
                          Computer monitors                     80%
                               Printers                         40%
                Source: NIST.


ENERGY STAR Product Performance Varied but Similar to
Non-ENERGY STAR Products
                Although we expected the ENERGY STAR designation to be a challenge for
                products (qualified or nonqualified) to meet, we found the majority of products
                tested, including non-ENERGY STAR products, met the ENERGY STAR
                efficiency standard, with some exceeding the standard by a wide margin. We also
                found that not all ENERGY STAR products performed comparably within the
                same product categories; some models were up to several times more efficient
                than others. Almost all of the models in our sample, including the non-ENERGY
                STAR products, would still qualify under more stringent energy efficiency
                standards.


5
 The “Time to Sleep Mode” requirement is only one of three tests needed to be ENERGY STAR qualified. Further,
as of July 2009, this model was no longer listed as an ENERGY STAR-qualified product.


                                                     5

                                                                                                          10-P-0040 





Manufacturer-supplied performance data for each ENERGY STAR-qualified
product is available on EPA’s Website. However, these data are not readily
usable for performance comparison by consumers because the ENERGY STAR-
qualifying standard is not included.

DVD Testing Results

DVD products must consume less than 1 watt of electricity in standby mode to
qualify for the ENERGY STAR label. In our sample, we found the average
consumption by the ENERGY STAR-qualified products was 0.56 watt, slightly
more than half the allowable amount. The performance of these qualified
products ranged from a low of 0.12 watt to a high of 0.89 watt. Six of the 10 non-
ENERGY STAR products we tested also met the standard. Two of the 10 non-
ENERGY STAR products performed better than 38 of the 40 (95 percent)
ENERGY STAR products we tested.

Specific details on the DVD products tested are presented in Figure 2-1 and
described below. All items below the green bar met ENERGY STAR
requirements.

Figure 2-1: DVD Product Performance
                                     1.40                                                      ENERGY STAR DVD
                                                                                               Products
                                                         ENERGY STAR Standard requires
                                                                                               Non-ENERGY STAR
                                     1.20               that products consum e less than       DVD Products
    Watts Consumed in Standby Mode




                                                              1 w att in standby m ode
                                     1.00


                                     0.80


                                     0.60


                                     0.40


                                     0.20


                                     0.00
                                            1   3   5    7   9   11 13 15 17 19 21 23 25 27 29 31 33 35 37 39
                                                                           DVD Products


Source: OIG analysis.




                                                                     6

                                                                                                       10-P-0040 





Computer Monitor Testing Results

ENERGY STAR performance standards for monitors vary based on product
resolution and pixel configurations. Figure 2-2 illustrates the deviation in
performance (positive or negative) relative to the applicable standards. The zero
line on the chart below shows the value needed to meet the ENERGY STAR
specification for this product.

Figure 2-2: Computer Monitor Performance
                                    60                                                      ENERGY STAR
                                                                                            Monitors
                                    50
                                                                                            Non-ENERGY STAR
       Percent Exceeding Standard




                                                                                            Monitors
                                    40


                                    30


                                    20


                                    10


                                     0
                                          1   3   5   7   9   11 13 15 17 19 21 23 25 27 29 31 33 35 37 39
                                    -10


                                    -20

                                                                   Computer Monitors

Source: OIG analysis.

The testing results showed that ENERGY STAR monitors surpassed the
ENERGY STAR standards by 16 to 55 percent. Eight of the non-ENERGY
STAR monitors performed similarly to the qualified products, performing 14 to
37 percent more efficiently than the standards. One non-ENERGY STAR
monitor performed more efficiently than half of the qualified products.




                                                                 7

                                                                                                    10-P-0040




Printer Testing Results

As with monitors, printer performance standards vary based on the addition of
certain features included with the base product model. Figure 2-3 shows the
performance relative to the key standard, the “Sleep Allowed Measure.” Similar
to Figure 2-2, the zero line on this chart shows the value needed to meet
ENERGY STAR specifications for these standards. While Figure 2-3 only
applies to the ink jet printers tested, the test results for laser printers were similar.

Figure 2-3: Ink Jet Printer Performance
                                                                                     ENERGY STAR Ink Jet
                                   100
                                                                                     Printers
                                    90                                               Non-ENERGY STAR
                                                                                     Ink Jet Printers
                                    80
     Percent Exceeding Standards




                                    70

                                    60

                                    50

                                    40

                                    30

                                    20

                                    10

                                     0
                                         1   3   5   7   9      11 13 15        17   19   21   23
                                                             Ink Jet Printers
Source: OIG analysis.

Testing results showed that ENERGY STAR ink jet printers surpassed the
ENERGY STAR standards by a low of almost 7 percent to a high of 88 percent.
The laser printers (not shown) exceeded the applicable standards by a low of
2 percent to a high of 81 percent. In addition, the performance of some of the
non-ENERGY STAR ink jet and laser printers exceeded the key ENERGY STAR
efficiency standards by a considerable margin.




                                                             8
                                                                                10-P-0040




ENERGY STAR Benefit Claims May Not Be Valid
         Based on our test results, the energy and greenhouse gas reductions claimed for
         qualified products may not be valid. EPA uses the formula shown in Figure 2-4
         to calculate the annual energy savings benefits and greenhouse gas reductions
         resulting from the ENERGY STAR program:

            Figure 2-4: ENERGY STAR Energy Savings Calculation


                 Non-ENERGY STAR product energy consumption
                                  minus
               ENERGY STAR product minimum energy consumption
                              multiplied by
                        ENERGY STAR product sales
                                 equals

                    ENERGY STAR Product’s Energy Savings

            Source: EPA.

         This formula and our test results ultimately affect the accuracy of the computed
         energy savings attributable to the program. We did not find the ENERGY STAR
         products in our sample to have performance levels equal to the minimum
         standard, nor did we find all ENERGY STAR products for a particular category to
         perform similarly. Both the generalizations inherent in the formula and the final
         benefits reported are affected by (1) the overlap between ENERGY STAR and
         non-ENERGY STAR products for energy savings, and (2) the variation in
         performance within the ENERGY STAR products.

Impact on Consumer Cost Savings
         ENERGY STAR products are advertised as offering consumers a means to reduce
         home and business energy costs, as well as an opportunity to help reduce
         greenhouse gas emissions. In a 2008 survey of consumers, EPA found 63 percent
         of households associated the ENERGY STAR label with “efficiency or energy
         savings.” In addition, of the households that recognized the ENERGY STAR
         label and purchased a product in a relevant product category within the past
         12 months, 73 percent purchased an ENERGY STAR-labeled product.

         Our results for the non-ENERGY STAR products tested show that many of these
         products met and exceeded program requirements. However, within the
         ENERGY STAR products selected, there were significant performance variations.
         These variations between qualified products and overlap with nonqualified
         products may mean that the cost savings advertised to consumers is misleading.
         Consumers who base their purchase of energy-efficient products on the ENERGY


                                         9

                                                                                  10-P-0040




         STAR label do not necessarily realize savings over some non-ENERGY STAR
         products. Additionally, there can be a significant difference in efficiency among
         ENERGY STAR-qualified products.

Conclusions
         The ENERGY STAR program is widely recognized but misunderstood. The
         ENERGY STAR label does not necessarily assure consumers superior energy
         savings over products that are not labeled ENERGY STAR. Despite the
         performance of all products in a given ENERGY STAR category, only those
         products produced by manufacturers that choose to join the ENERGY STAR
         program may advertise their products with the ENERGY STAR label.

         If our sample results are representative of the universe of ENERGY STAR
         products, these results call into question the ability of the program to identify
         products with superior energy efficiency. Because manufacturer participation in
         the program is voluntary, the ENERGY STAR designation does not necessarily
         identify the best performing products in the marketplace. Additionally, a high
         rate of compliance by non-ENERGY STAR products will affect the EPA’s
         method of computing energy savings. EPA could improve the integrity of the
         program with enhanced product testing and adjustments to the greenhouse gas
         benefits calculation.

Recommendations
         We recommend that the Assistant Administrator for Air and Radiation:

         2-1    Verify estimated energy savings and greenhouse gas reduction
                calculations using a market-based performance testing program that
                includes testing non-ENERGY STAR products.

         2-2    Revise the ENERGY STAR Website to include the established standard
                alongside qualifying product performance data and to provide a summary
                listing of the highest performers.

Agency Comments and OIG Evaluation

         The Agency concurred with our recommendations and agreed to implement them.
         However, the Agency disagreed with the report’s conclusions. The Agency did
         not concur with conclusions drawn based on a select number of non-ENERGY
         STAR products performing comparably to or better than the ENERGY STAR
         products. The Agency concluded that the value of the ENERGY STAR label is
         ultimately in the assurance the label provides consumers that the ENERGY STAR
         product they purchase will consistently save them energy. We disagree with this
         conclusion and maintain our concerns about the integrity of the ENERGY STAR


                                         10 

                                                                       10-P-0040




program as well as the associated energy and cost savings reported to consumers.
The Agency’s complete response is included in Appendix A.




                                11 

                                                                                                                                       10-P-0040




                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                             POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                            BENEFITS (in $000s)

                                                                                                                 Planned
    Rec.    Page                                                                                                Completion   Claimed    Agreed To
    No.      No.                         Subject                        Status1        Action Official             Date      Amount      Amount

    2-1      10     Verify estimated energy savings and greenhouse          O     Assistant Administrator for
                    gas reduction calculations using a market-based                   Air and Radiation
                    performance testing program that includes testing
                    non-ENERGY STAR products.

    2-2      10     Revise the ENERGY STAR Website to include the           O     Assistant Administrator for
                    established standard alongside qualifying product                 Air and Radiation
                    performance data and to provide a summary listing
                    of the highest performers.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                12 

                                                                                        10-P-0040




                                                                                    Appendix A

                 Agency Comments on Draft Report


                                (Received on November 6, 2009)

MEMORANDUM


Subject:       Comments on the Draft Evaluation Report: ENERGY STAR
               Program Integrity Can Be Enhanced Through Expanded Product Testing

From:          Elizabeth Craig
               Deputy Assistant Administrator

To:            Jeffrey Harris, Director
               Cross-Media Issues, Office of Program Evaluation

Thank you for the opportunity to comment on the Draft Evaluation Report: ENERGY STAR
Program Integrity Can Be Enhanced Through Expanded Product Testing. We are pleased to see
that testing done by the Inspector General’s Office indicates that the ENERGY STAR qualified
products tested are at least as efficient as advertised and no issues with the manufacturer self-
certification process were indicated.

While we appreciate and share your interest in protecting the integrity of the ENERGY STAR
Program, we do not concur with the conclusions drawn based on a select number of non-
ENERGY STAR qualified products performing comparably to or better than the ENERGY
STAR products. The ENERGY STAR label’s image as a trusted symbol for environmental
protection through superior efficiency is ultimately affected by the performance of products
bearing the label, not by non-participating products. In fact, based on the compliance rates the
OIG found, the consumer choosing a product with the ENERGY STAR label receives the energy
efficiency they expect; choosing a non ENERGY STAR product would provide the consumer
with a range of possible outcomes as the non-ENERGY STAR products may or may not be
efficient.

Although we disagree with the report’s conclusions, we recognize potential benefit associated
with the recommendations it makes and would be pleased to implement them.




                                                13 

                                                                                       10-P-0040 





OAR Response to IG Recommendations in Draft Report and Status of Implementation

Recommendation 2-1: Verify estimated energy savings and greenhouse gas reduction
calculations using a market-based performance-testing program that includes testing non-
ENERGY STAR products

       OAR Response: As part of the Obama Administration’s commitment to enhancing the
       ENERGY STAR Program (as articulated in a new MOU signed by EPA and DOE on
       September 30, 2009), we plan to institute new ENERGY STAR qualification testing
       requirements that will leverage market-based mechanisms to broaden and improve the
       performance test data available to us for use in verifying estimated energy savings and
       greenhouse gas reduction calculations. In conjunction with this effort, we will be
       working with the Department of Energy to expand verification testing of ENERGY
       STAR qualified products, with the intent being to test both qualified and non-qualified
       products.

Recommendation 2-2: Revise the ENERGY STAR Website to include the established standard
along side qualifying product performance data and to provide a summary listing of the highest
performers.

       OAR Response: We agree that it may be useful to provide interested consumers a web-
       based means of comparing and ranking qualifying product performance against
       established ENERGY STAR standards. We are currently exploring options for
       effectively addressing this while minimizing added administrative burden.



cc: Brian McLean
   Ann Bailey
   David LaRouche




                                               14 

                                                                              10-P-0040




                                                                            Appendix B

                                    Distribution

Office of the Administrator
Assistant Administrator, Office of Air and Radiation
Deputy Assistant Administrator, Office of Air and Radiation
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Air and Radiation
Acting Inspector General




                                             15 

